          PUBLIC
         RELEASE


PATENT AND TRADEMARK OFFICE

Patent Quality Controls Are Inadequate

  Audit Report No. PTD-9977-7-0001 / September 1997




                Office of Audits, PTO Audits Division
                                      September 30, 1997


MEMORANDUM FOR:               Bruce A. Lehman
                              Assistant Secretary and
                               Commissioner of Patents and Trademarks


FROM:                         George E. Ross
                              Assistant Inspector General for Auditing


SUBJECT:                      Final Report: Patent Quality Controls
                              Are Inadequate (PTD-9977-7-0001)

This is our final report on the effectiveness of PTO’s Office of Patent Quality Review and PTO’s
efforts to implement a substitute patent quality review process.

PTO agreed with our evaluation of the current patent quality review process, accepted our
recommendations, and outlined a course of action to implement them. PTO stated it would carry
out our second recommendation to conduct an analysis of OPQR’s sampling methodology, and
that the study’s results would provide the OPQR with the resources to meet the first and third
recommendations.

PTO’s response adequately addresses our recommendations. After further discussions with PTO
officials, we have revised the second recommendation. We would welcome the opportunity to
review any recommendations resulting from the study and suggest that PTO include them in its
action plan.

A summary of PTO’s response to the draft report, along with our comments, begins on page 8.
PTO’s complete response is attached to the final report. We also have attached additional copies
of the report for PTO’s convenience.

We would appreciate receiving your action plan addressing our recommendations within 60
calendar days, in accordance with Department Administrative Order 213-5. The plan should be in
the format specified in Exhibit 7 of the DAO. Should you have any questions regarding the
preparation of the action plan, please contact Bruce Carpel, Director, PTO Audits Division, at
(703) 306-3315.
INTRODUCTION

PTO established the Quality Review Branch in 1974 in response to growing public criticism of the
quality of issued patents. Its purpose was to monitor and evaluate the quality of the patent
examination process by reviewing a sample of approved patents and reporting the results each
month to PTO management. The Patent Corps uses the information to identify recurring
problems with quality, to improve training, and to prevent the issuance of improper patents. The
Office of Patent Quality Review, successor to the Quality Review Branch, reports to the Deputy
Commissioner for Patents and Trademarks to ensure the independence and the integrity of its
reviews.

The integrity of the patent system depends largely on the quality of issued patents. In 1990, the
OIG issued an audit report, Improvements Needed in the Patent Quality Review Program
(EAD-0231-0-0002, February 1990). Citing the fact that error rates had not declined since the
program’s inception, the report found that PTO was not using the information generated by
OPQR to maximum advantage. We made several recommendations to better utilize quality
review data and improve OPQR’s effectiveness. PTO implemented most of the
recommendations. Between 1990 and 1996, PTO experienced a steady decline in both the
percentage of possible patentability errors and patent cases reopened, as shown in Graph 1.

                 Graph 1. Error Rates Reported by OPQR, FY 1990 - FY 1996




However, in 1994 PTO decided to eliminate OPQR in favor of a proposal called the Examination
Quality Process (EQP) that would reengineer the patent quality review process. EQP is the
product of a multi-year study intended to improve the quality of examinations by increasing the
involvement of experienced examiners and PTO customers in the examination process. PTO
sought to replace OPQR evaluations with customer satisfaction surveys as the primary measure

                                                 2
of examination quality. Also, PTO stated that quality checks made early in the examination
process by experienced examiners would provide more timely feedback than evaluations
conducted by OPQR at the end of the process.

When informed of the proposal, we raised serious concerns about the plan and recommended that
PTO refrain from eliminating OPQR until it had confirmed that the replacement process worked
as advertised. PTO agreed to maintain OPQR’s staffing level and continue to sample examiner
actions as done in the past (at a four percent sampling rate of allowed patents) until EQP had been
proven to be equally effective.

PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to evaluate the effectiveness of OPQR and the status of PTO’s
efforts to implement a substitute quality review process. We reviewed corrective actions taken by
PTO as a result of recommendations made in our 1990 audit report. We evaluated OPQR’s
current staffing, patent application review techniques, sampling methodology, and recent
conclusions. We reviewed PTO’s draft report, Patent Quality Improvement Reengineering
Project, Examination Quality Process. We also interviewed several key PTO personnel,
including senior patent officials, OPQR’s Director, and members of the patent office’s Continual
Quality Improvement team. We did not evaluate internal controls over certain computer-
generated data; however, we performed sufficient tests to satisfy ourselves that the data PTO
provided was reliable.

We conducted our fieldwork from May through July 1997. Our review was conducted in
accordance with generally accepted government auditing standards and was performed under the
authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980.

PATENT QUALITY CONTROLS ARE INADEQUATE

PTO has reduced OPQR’s staff and responsibilities without confirming an alternative method of
measuring and reporting on patent quality. Specifically, we found that PTO has: (1) decreased
OPQR’s staff and sampling levels, reducing the effectiveness of its quality control program; and
(2) delayed implementation of the EQP, which was originally intended to replace OPQR.

The evaluations conducted by OPQR are an important internal control that helps to ensure quality
by providing a counterbalance to pressures on the Patent Corps to increase production. These
pressures are the result of a steady rise in patent applications and a corresponding backlog of
patents waiting to be processed. We believe that without a reliable, independent means of
assessing quality, PTO has inadequate management controls to ensure the quality of patent
examinations.




                                                3
Effectiveness of OPQR Has Been Reduced

The quality review process has become more effective as a result of process improvements
recommended in our 1990 report. Errors associated with patent examinations have declined from
8 percent in 1990 to less than 4.7 percent in 1996. However, since 1993, the staff of OPQR has
been inappropriately reduced from 16 reviewers to as few as 9, necessitating a decrease in the
sampling rate from four percent to two percent. PTO cut OPQR’s staff because it expected to
replace the office with a reengineered quality process. This was a mistake. We question the need
to reengineer a process that had been working well. It should be noted that PTO committed to
maintaining its existing process and staffing levels until it confirmed that the replacement process
was adequate to accurately measure the error rates.

PTO determined in 1978 that a sampling rate of four percent was necessary to provide a valid
statistical basis for evaluating the quality of work produced by each art unit, the smallest
organizational unit of the Patent Corps. OPQR needed to maintain a staff of at least 16 reviewers
during the 1990s to achieve this level of sampling. However, since 1993 the Director of OPQR
has not been permitted to fill positions that have become vacant through attrition. As a result,
OPQR no longer reviews enough patent applications to effectively identify systemic weaknesses in
the examination process and produce meaningful statistics about patent quality.

As illustrated in Table 1, the size of OPQR’s samples and its sampling rate have declined, along
with its staffing levels. Data for FY 1997 is incomplete. However, OPQR projects it will review
about 2,472 allowed patents. Should PTO issue at least as many patents in FY 1997 as it did in
FY 1996, the result will be an even lower sampling rate in FY 1997.

                     Table 1. OPQR Sampling Levels, FY 1992 - FY 1996

                        FY 1992        FY 1993         FY 1994        FY 1995         FY 1996
   Patents Allowed      114,106         116,151        119,609         119,521        135,321
     4% Sample            4,564          4,646           4,784          4,785           5,412
  Patents Reviewed        4,320          4,067           4,233          3,644           2,832
      Difference           244            579             551           1,141           2,589
     Sample Rate          3.8%           3.5%            3.5%           3.0%            2.1%
  Patent Reviewers         16              15             14              13              9

In April 1996, PTO officially reduced OPQR’s sampling rate to two percent. Actually, OPQR’s
sampling rate had already fallen below two percent in the Chemical discipline. Although PTO
acknowledges that two percent samples are not adequate to validate the quality of work
performed by each art unit, it asserts that the samples are large enough to provide statistically



                                                  4
valid information at the group level. However, PTO is unable to substantiate this assertion. No
statistical analysis was performed to justify the reduction in OPQR’s sample size, or to determine
whether other changes in the sample design are necessary as a result of the reduction.

Since the sampling rate was reduced, error rates reported by OPQR have gradually increased, as
shown in Graph 2.

             Graph 2. Error Rates Reported by OPQR, April 1996 - July 1997




Also, the decrease in sample size makes it more likely that problems confined to an individual art
unit will remain unidentified. As a result, OPQR will identify fewer common problems, or
systemic trends, in the examination process. Formerly, problems identified at the art unit level
could be addressed through targeted corrective actions, such as additional training. The decrease
in sample size will not allow PTO to pinpoint problem areas. Consequently, PTO will need to
spend more money to administer solutions, i.e., training more examiners than would have been
necessary using the original sample size.

Problems Plague EQP

The new Examination Quality Process, originally scheduled to be completed by October 1995,
could face further delays as a result of problems encountered during a pilot test. Those problems
undermine claims that the new process will improve quality and be cost effective.

PTO recently completed a pilot to assess the viability of the two major components of EQP:
Coach/Counseling and Customer Involvement. Although the report on the pilot stated that the
quality of the examination process was improved in six of eight categories measured, it noted that
too many coach-counselors (experienced examiners) were employed during the pilot. The



                                                 5
ratio of coach-counselors to examiners was in some cases as low as 1:1. PTO acknowledged that
this arrangement would not be cost-effective on a regular basis, and that the increased oversight
during the pilot may have caused the improvement in quality observed to be overstated. In
addition, the report cited “severe weaknesses” in the use of customer surveys as primary measures
of quality. Most importantly, pilot participants found that the response rate of customer feedback
surveys was too low to be conclusive.

Final implementation of the reengineered patent quality process may be further delayed because of
uncertainty surrounding the amount of PTO’s FY1998 funding and negotiations with employee
unions. PTO is expecting the Congress to permanently withhold $92 million in surcharge fees,
thereby constraining the agency’s resources. Any actions initiated by management that affect
patent examiners’ working conditions must be negotiated with the unions. An agreement with the
union can take as long as 18 months to negotiate, resulting in further delays of management’s
initiatives. As a result, reengineering projects, including EQP, are on hold.

OPQR Role Should Be Expanded

Our 1990 report on patent quality found that reviewing only allowed patents was too limited and
recommended that OPQR expand its sampling to include certain types of first actions (the initial
decision by an examiner to either allow or reject an application), namely rejections. At that time,
PTO responded that budgetary constraints prevented it from adopting the recommendation.
Subsequently, the pilot report on EQP recommended that PTO maintain OPQR but change its
emphasis from reviewing allowed patents to reviewing first actions.

Many patent managers now believe that the review of allowed patents frequently occurs too long
after the initial patent examination to provide timely feedback to the Patent Corps. We disagree.
The review of allowed patents is valuable. It not only provides feedback to management, but also
gives the public assurance that patent examinations are being performed effectively. Despite the
time lag, the reviews are a good source of feedback for management because patentability issues
change little over time. In the 1970s, PTO appointed a committee to study the issue of patent
examination quality. After reviewing a number of potential measures, the committee concluded:
“No single indicator or group of indicators have been found which could be used to reliably
measure examination quality over time. Each offers help and the data from the Quality Review
Program offers the most.”

We strongly reaffirm our 1990 position that a review of first actions is worthwhile. We believe
that the types of reviews conducted by OPQR should be expanded to offer additional information
about patent quality to PTO and the public.

CONCLUSION

We believe that a strong, independent Office of Patent Quality Review is needed to ensure that
production is not increased at the expense of quality. In addition, OPQR enhances PTO’s



                                                 6
credibility with regard to quality at a time when the Congress is considering giving PTO increased
independence from government oversight by allowing PTO to become a performance based
organization. PTO prematurely reduced OPQR’s staff before EQP was complete, or proven to be
an effective quality control measure, thereby preventing OPQR from conducting four percent
samples as it has since 1978. We estimate that reinstating the necessary OPQR staff would
require no more than 10 additional FTEs. Because of the importance of maintaining public
confidence in the quality of allowed patents, PTO should restore OPQR to full strength.

RECOMMENDATIONS

We recommend that the Assistant Secretary and Commissioner of Patents and Trademarks:

1.     Provide the additional staff to OPQR to sample approved applications at the previously
       validated rate of four percent. Increase OPQR’s staff as necessary to maintain statistically
       valid samples at the art unit level.

2.     Conduct a statistical analysis of OPQR’s sampling methodology to determine what level of
       sampling is necessary to produce statistically valid results at all organizational levels,
       including the proposed realignment to industry sectors.

3.     Instruct OPQR to expand the patent quality review process to include the review of first
       actions and other work products that may be meaningful to patent managers.




                                                7
                           PTO RESPONSE AND OIG COMMENTS

PTO agreed with our evaluation of the current patent quality review process, accepted our
recommendations, and outlined a course of action to implement them. PTO stated it would carry
out our second recommendation to conduct an analysis of OPQR’s sampling methodology, and
that the study’s results would be the basis for providing the OPQR with the resources to meet the
first and third recommendations.

PTO’s response adequately addresses our recommendations. After further discussions with PTO
officials, we have revised the second recommendation. We would welcome the opportunity to
review any recommendations resulting from the study and suggest that PTO include them in its
action plan.

A summary of PTO’s response along with our comments follows. A complete copy of PTO’s
response is attached to the final report.

Recommendation #1

Provide the additional staff to OPQR to sample approved applications at the previously validated
rate of four percent. Increase OPQR’s staff as necessary to maintain statistically valid samples at
the art unit level.

PTO Response

PTO will immediately post vacancy announcements for chemical, electrical, and mechanical
review examiner positions. PTO expects to add the necessary staff to OPQR so that the sample
of reviewed applications could be adjusted to a level consistent with the objective behind previous
sampling techniques; that is, to report statistically valid results on the quality of the art units’
examination process. The exact number of reviewer positions to be filled will be determined when
the study is completed and the sample verified. Specifically, PTO stated it would analyze the
results and expand OPQR so that it can conduct a statistically valid sample not only of allowed
applications but of first actions as well.

PTO feels that a new statistical validity study must be conducted to determine the precise sample
for review and, correspondingly, the resources OPQR would need. PTO will contract with a
professional statistician to assist in this determination. PTO acknowledged that it has been some
time since a statistical validity study has been made and that OPQR’s selection of a constant
sample from each art unit rather than a percentage from each art unit, as had been done since
1978, was controversial. PTO also stated that budgetary and other constraints have contributed
to the constant sample rate being adjusted decreased.




                                                 8
OIG Comments

We concur with PTO’s response to our recommendation. We agree that PTO should conduct a
statistical validity study before staffing OPQR to sample approved applications at the previously
validated rate of four percent.

In its response, PTO noted that Table 1 of our draft report calculates the sample from the number
of patents issued, although OPQR has been sampling allowed applications. We corrected the data
accordingly.

Recommendation #2 (original wording in draft report)

Conduct a statistical analysis of OPQR’s sampling methodology to determine what level of
sampling is necessary to produce statistically valid results at the Group level.

PTO Response

PTO agreed with our recommendation. PTO is in the process of hiring an outside, independent,
professional statistician to determine the level of sampling necessary to produce statistically valid
results both at the group and art unit levels. The study will operate on the premise that PTO
desires to not limit sampling to allowed applications but to a meaningful sample including at least
first actions.

OIG Comments

We concur with PTO’s response to our recommendation. We have reworded our
recommendation to state that the analysis should review all levels, not just the group level, as well
as the proposed industry sectors. We agree that the study should form an objective foundation on
which OPQR can conduct its reviews, and this was the intent of our recommendation.

We were encouraged by PTO’s comments that the statistician may have to address the pertinence
of results generated from the recommended sample rates in making conclusions about the quality
of specific aspects of the examination process. We believe PTO can only benefit from such
analysis.

PTO invited our office to review the statistical validity study as well as any resulting
recommendations, and we would welcome the opportunity to assist PTO once the study is
completed.

Recommendation #3

Instruct OPQR to expand the patent quality review process to include the review of first actions
and other work products that may be meaningful to patent managers.



                                                  9
PTO Response

PTO agreed with our recommendation. PTO stated that OPQR will be instructed to take the
steps necessary to include a review of first actions and other work products that may be
meaningful to patent managers. PTO stated that a large amount of the work produced by the
Patent Corps does not result in allowed applications. While a review of allowed cases has merit
and will continue to be conducted, an emphasis solely on allowed applications to the exclusion of
other work products gives a delayed and slanted view of the quality of the examination process.
However, it does provide an important baseline against which more current data (e.g., first
actions) can be compared.

PTO stated the required resources to meet this recommendation will depend on the statistical
validity study. Presently, PTO does not know how many first actions would constitute a valid
sample. Nonetheless, in its response, PTO discussed how OPQR and patent managers can work
together to facilitate a review of first actions that meets the needs of patent managers and their
goal of issuing quality patents.

OIG Comments

We concur with PTO’s response to our recommendation. We believe that increased cooperation
between OPQR and patent managers can only serve to strengthen the quality review program.
We agree with PTO’s decision to include OPQR in discussions with patent managers as it seeks
to expand the quality review process to include first actions.

Attachment




                                                10
